GR-70-98-004
U.S. Department of Justice
 
Audit Report 
  
Community Oriented Policing Services
AHEAD, UHP and TROOPS TO COPS Grants to the Suffolk County, New York
Police Department
Grant Numbers 95-CC-WX-0471 (AHEAD),
96-DV-WX-0029 (UHP), and
95-TC-WX-1180 (TROOPS TO COPS)
GR-70-98-004
March 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Police Department, County of Suffolk, New York (Suffolk
Police). Suffolk Police received a grant of $11,475,000 to hire or rehire 153 additional
sworn police officers under the Accelerated Hiring, Education, and Deployment (AHEAD)
program and two Universal Hiring Supplement (UHP) programs, and $20,000 for the TROOPS TO
COPS program. The purpose of the additional officers is to enhance community policing
efforts.
Generally, Suffolk Police properly managed the COPS grants:

- Costs charged to the grants were in accordance with grant requirements. As of
  December 31, 1997, Suffolk Police had requested reimbursement for about 47 percent of the
  allowable costs for the AHEAD grant, and 66 percent of the allowable costs for the first
  UHP grant. The Suffolk Police had not incurred costs related to the second UHP grant and
  had requested 100 percent of the reimbursement for costs for the TROOPS TO COPS grant.
- Budgeted funds for police services and the number of officers budgeted remained above
  the level of FY 1994, the year before the first grant. 
- Funds provided under the grants were used to enhance Suffolk Police's community
  policing efforts. The number of officers assigned to community policing activities
  increased above the number of officers funded under the grants.

However, Suffolk Police violated some grant conditions:

- A DOJ Civil Rights Division action cited Suffolk Police's most recent police officer
  written examination as having an adverse impact on certain racial and ethnic groups.
  Consequently, Suffolk Police has not hired police officers since October, 1996.
- Suffolk Police did not submit eight Financial Status Reports for AHEAD and UHP to the
  Office of Justice Programs timely.
- Suffolk Police did not report outlays attributable to the UHP grant on the Financial
  Status Reports in the appropriate quarters.

 
#####